<html>
<title> - [H.A.S.C. No. 114-75] GAME CHANGING INNOVATIONS AND THE FUTURE OF SURFACE WARFARE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-75]

      GAME CHANGING INNOVATIONS AND THE FUTURE OF SURFACE WARFARE

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 9, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     



                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-280                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

   
   
   
   
   
   
   
   
   
   
   
   
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

McGrath, Bryan, Managing Director, The Ferrybridge Group, LLC....     1
Solomon, Jonathan F., Senior Systems and Technology Analyst, 
  Systems Planning and Analysis, Inc.............................     3

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    21
    Forbes, Hon. J. Randy........................................    19
    McGrath, Bryan...............................................    24
    Solomon, Jonathan F..........................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

    
    
    
    

      GAME CHANGING INNOVATIONS AND THE FUTURE OF SURFACE WARFARE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                       Washington, DC, Wednesday, December 9, 2015.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. We would like to welcome our witnesses today to 
this hearing on game-changing innovations and the future of 
surface warfare.
    As we have previously told you, we may be interrupted with 
a vote. So Mr. Courtney and I both have agreed that we are just 
going to put our opening statements in for the record so that 
we can go ahead and begin and try to get all the testimony in 
and then hopefully get to our questions and answers.
    Today joining us are two thought leaders in the area of 
surface warfare, Mr. Bryan McGrath, the Managing Director of 
the FerryBridge Group, and Mr. Jonathan Solomon, Senior 
Analyst, Systems Planning and Analysis, Incorporated.
    And gentlemen, both of you, we appreciate you being here 
today.
    And Bryan, it is my understanding you are going to start us 
off. So with that, we yield the floor to you.
    First of all, Joe, did you have anything you wanted to add?
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 19.]
    Mr. Courtney. No--I waive my opening statement.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 21.]
    Mr. Forbes. Okay.

STATEMENT OF BRYAN McGRATH, MANAGING DIRECTOR, THE FERRYBRIDGE 
                           GROUP, LLC

    Mr. McGrath. Great. Chairman Forbes, thank you. Ranking 
Member Courtney, members of the subcommittee, thanks again for 
the opportunity to testify with you on a matter of importance 
to our Navy and to the Nation.
    The discussion today revolves around game changers and 
innovations in the future of surface warfare. And I have a few 
of those in my written statement that I submitted. I'd love to 
answer some questions about them if you have them later.
    Some of those game changers include--they flow almost all 
from the concept of Distributed Lethality which is something I 
know you have heard a lot about lately, including long-range 
surface-to-surface missile improvements, multi-source maritime 
targeting and tracking, real-time ISR [intelligence, 
surveillance, and reconnaissance] vulnerability assessment, 
electromagnetic spectrum warfare and medium-altitude long-
endurance UAVs [unmanned aerial vehicles].
    But I think before we jump into the sort of tactical and 
operational stuff, I would like to elevate it back to some 
first things.
    I realize no one was being glib when the title of this 
hearing was chosen, but I think it is important that we think 
about exactly what game it is that we are seeking to change.
    And as we watch China reprise its ancient role of dominance 
in the East and we watch Russia exhibit its modern version of 
its historic geographic paranoia, we are confronted with the 
obvious reality of multi-polar, great-power competition.
    This reality leads me to conclude that the game, for want 
of a better term, is conventional deterrence. This is a game 
for which I think the United States Navy is somewhat less 
prepared than I would like.
    There are many reasons for this, and we can discuss them as 
you desire. Among them, however, is the accreted effects of 
decades without a competitor and the Navy's slow realization 
that this is no longer the case.
    That this realization has occurred late is bad enough, but 
it is compounded by the impact of ruinous resource constraints.
    The second issue, and what I would like to close on in this 
statement, is I think we have a little bit of a collective 
fascination with technology. Senior officials in the Defense 
Department will tell you with a straight face that the Third 
Offset Strategy is not all about technology and then commence a 
40-minute discussion about the Third Offset Strategy that is 
all technology.
    Offset strategies one and two occurred when the United 
States dominated the technology world worldwide. And even 
within the United States, technology was dominated by the 
government and by the military. Neither of those conditions 
applies today.
    Technology has been commercialized and globalized. And 
trying to pull a rabbit out of the technology hat again is 
going to prove much more difficult this time. There is no 
substitute for the Nation spending what is required in order to 
see to its security and prosperity. There is no substitute for 
the time-honored contributions of stockpiled weapons, powerful, 
forward-deployed surface ships, combat-ready surge forces, and 
a robust industrial base.
    There is no substitute for the psychology of conventional 
deterrence, which suggests to potential aggressors that not 
only is your aggression going to be punished, but it is likely 
to be unsuccessful.
    I counsel against ignoring these simpler notions while we 
search for technological silver bullets. World leadership 
cannot be had on the cheap and we must decide whether we 
continue to value our position and role in the world and then 
resource it accordingly.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. McGrath can be found in the 
Appendix on page 24.]
    Mr. Forbes. Mr. Solomon.

STATEMENT OF JONATHAN F. SOLOMON, SENIOR SYSTEMS AND TECHNOLOGY 
          ANALYST, SYSTEMS PLANNING AND ANALYSIS, INC.

    Mr. Solomon. Thank you. Thank you, Chairman Forbes----
    Mr. Forbes. Mr. Solomon, can you pull that a little bit 
closer and make sure it is turned on?
    Mr. Solomon. First, I apologize. Okay, I thank you, 
Chairman Forbes and Ranking Member Courtney, and all the 
members of the Seapower and Projection Forces Subcommittee for 
granting me the honor of testifying today.
    I am going to keep my remarks about 3\1/2\ minutes because 
I am very excited to go forward into the open question-and-
answer.
    So a bit of background. I am a former U.S. Navy Surface 
Warfare Officer and I served as Anti-Submarine Warfare Officer 
and a fire control officer of destroyers during my two division 
officer tours before leaving active duty.
    My civilian job for the past 11 years at Systems Planning 
and Analysis, Incorporated, has been to provide programmatic 
and systems engineering support to various surface combat 
systems acquisition programs within the portfolio of the Navy's 
Program Executive Officer Integrated Warfare Systems.
    This work has provided me an opportunity to participate, 
however peripherally, in the development of some of the surface 
Navy's future combat systems technologies. It has also enriched 
my understanding of the technical principles and considerations 
that affect cost and performance. This is no small thing 
considering I am not an engineer by education.
    Before I continue, I want to make clear that the views I 
express today are presented solely in my personal capacity. 
They do not reflect the official positions of Systems Planning 
and Analysis, Incorporated, and to my knowledge do not reflect 
the positions or policies of the U.S. Department of Defense, 
any U.S. armed service, or any other U.S. Government agency.
    In recent years, and with the generous support and 
encouragement of Mr. Bryan McGrath, I have taken up the hobby 
of writing articles that connect my academic background in 
maritime strategy, naval history and naval technology, and 
deterrence theory, with my professional experiences.
    One of my favorite topics concerns the challenges and 
opportunities surrounding the potential use of electronic 
warfare [EW] in modern maritime operations, a subject that I 
first encountered while in active duty and later explored in 
great detail during my master's thesis investigation, how 
advanced wide-area oceanic surveillance-reconnaissance-
targeting systems of systems were countered in the Cold War and 
might be countered again in the future.
    Electronic warfare receives remarkably little attention in 
the ongoing debates over future operating concepts and the 
like. Granted, classification serves as a barrier with respect 
to specific capabilities and systems.
    But electronic warfare's basic technical principles and 
effects are and have always been unclassified. I believe that 
much of the present unfamiliarity concerning electronic warfare 
stems from the fact it has been almost a quarter century since 
U.S. naval forces last had to be prepared to operate under 
conditions in which victory, not to mention survival, in battle 
hinged upon achieving temporary localized mastery of the 
electromagnetic spectrum over the adversary.
    America's chief strategic competitors intimately understand 
the importance of electronic warfare to fighting at sea. Soviet 
Cold War-era tactics for anti-ship attacks have been leveraged 
with what they termed ``radio-electronic combat'' and there is 
plenty of open-source evidence available to suggest this 
remains true in today's Russian military as well.
    The Chinese are no different with respect to how they 
conceive of fighting under ``informatized conditions.''
    In a conflict against either of these two great powers, 
U.S. maritime forces' sensors and communications pathways would 
surely be subjected to intense disruption, denial, and 
deception via jamming tactics.
    Likewise, ill-disciplined electromagnetic transmissions by 
U.S. maritime forces in the combat zone might very well prove 
suicidal in that they could provide an adversary a bull's-eye 
for aiming its long-range weapons.
    To their credit, the Navy's senior-most leadership have 
gone to great lengths to stress the importance of electronic 
warfare in recent years, most notably in the new Maritime 
Strategy.
    They have even launched a new concept they call 
electromagnetic maneuver warfare, which appears geared toward 
exactly the types of capabilities I outline in my prepared 
statement.
    It is therefore quite likely that major elements of the 
U.S. Navy's future war, surface warfare vision, Distributed 
Lethality, will take electronic warfare considerations into 
account.
    I would suggest that Distributed Lethality's developers do 
so in three areas in particular: command and control doctrine, 
force-wide communications methods, and over-the-horizon 
targeting and counter-targeting measures.
    I want to be clear that the tools and tactics I advocate 
for in my prepared statement will not serve as silver bullets 
that shield our forces from painful losses, and there will 
always be some degree of risk and uncertainty involved in the 
use of these measures. It will be up to our force commanders to 
decide when conditions seem right for their use in support of 
particular thrusts.
    Such measures should be viewed as force multipliers that 
grant us much better odds of perforating an adversary's oceanic 
surveillance and reconnaissance systems of systems temporarily 
and locally, if used smartly, and thus better odds of 
operational and strategic successes.
    And with that, I look forward to your questions and 
discussion that will follow. Thank you.
    [The prepared statement of Mr. Solomon can be found in the 
Appendix on page 39.]
    Mr. Forbes. Thank you.
    Mr. McGrath, you have talked a lot about Distributed 
Lethality as kind of a game changer for surface fleet 
operations, especially with our carrier groups. There is a huge 
risk to that, however, though. For Distributed Lethality to 
work, we are going to have to distribute our force away from 
the carrier where we have normally used it for protection.
    Two questions I have for you. Describe that risk. How do we 
know that that risk is worth taking? Because do we not increase 
the vulnerability that we would have for a carrier in that 
particular situation?
    And the second thing is we don't get to tell the Navy how 
to fight, we simply help provide them resources for them to 
utilize when they have made those decisions. What shifts would 
we have to make in our resourcing if we were to move to a 
Distributed Lethality concept or operation of fighting?
    Mr. McGrath. The risks, your first question, Chairman 
Forbes, the surface leadership has been very clear from the 
beginning that job one remains high-value unit protection, that 
the anti-surface, anti-submarine, integrated air and missile 
defense capabilities that they provide to the strike group 
through the ships of the surface force cannot and will not be 
diminished.
    But there are other surface ships in the war plans that are 
not necessarily allocated just to supporting high-value units. 
It is with these ships and hopefully in a future where we build 
more ships that Distributed Lethality will have its greatest 
impact.
    The second question with respect to where you might shift 
your resources, long-range, surface-to-surface missiles, job 
one, the quicker the better, more pressure on the Navy rather 
than less. You don't get to tell them how to fight, but you can 
ask really hard questions and make them give really hard 
answers.
    Why would we not harvest low-hanging fruit in order to take 
our longest-range, surface-to-surface weapon from approximately 
70 miles to a thousand miles in 5 or 6 years? That seems to me 
like it is worth considering. That is turning the Tomahawk 
land-attack missile into a hybrid surface and land-attack 
missile.
    So I would urge you to push hard on surface-to-surface 
missiles, and I would urge you to push hard on closing the 
grand fire control loop.
    We have national technical means, we have UAVs, we have 
battle group assets, theater assets, fleet assets. All of these 
assets are creating data, taking measurements, information. We 
need to make sure that that data is fused and that fire control 
quality tracks are sent back out to the ships in a way that can 
be tactically useful and relevant.
    We have all the pieces, they are just not very well 
connected yet. And you should make the Navy tell you how they 
are going to do that.
    Mr. Forbes. So let me just make one clarifying or add one 
clarifying question. As I hear you, you are suggesting that we 
are not taking away any of our defensive capabilities, we are 
simply adding a supplement to that, which would have offensive 
capabilities.
    Because it was my understanding from most of the briefings 
that I have gotten from the Navy on Distributed Lethality that 
they were talking about something a little different, where 
they were trading off current defensive capabilities for more 
offensive capabilities.
    But that is not the way you see Distributed Lethality?
    Mr. McGrath. Not at all.
    Mr. Forbes. Okay, good.
    Okay, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    The title of the hearing is about game-changing 
innovations. And I think, again, we have heard a good 
discussion about offensive sort of game-changing innovations.
    In terms of, you know, electronic warfare, in terms of 
hardening, I think that was the term that Mr. McGrath used in 
his testimony, our fleet, maybe you could talk a little bit 
about that sort of piece of game changing.
    Mr. Solomon. So I think it is twofold, it is both 
technological and psychological.
    From the technological standpoint, and this is my personal 
opinion again, the Navy has not invested in electronic warfare 
to the extent that it did during the Cold War over the last 30 
years or so.
    There is certainly fantastic capabilities out there and 
certainly new fantastic capabilities in the development path. 
But you get the sense that the Navy is a little bit behind in 
terms of pacing types of threats that we are seeing right now 
from other great powers.
    So there is certainly a technological aspect to it, and 
procuring new systems will give us the new capability. But I 
personally see that the psychological is actually perhaps the 
more disconcerting one. And that is, again, in 30 years we 
haven't conditioned our forces for operations under opposed 
electromagnetic conditions.
    You know, back in the Cold War we routinely operated our 
carrier battle groups at emissions control conditions, EMCON. 
They would be dark for days on end driving around the Atlantic, 
driving the Soviets nuts in terms of trying to find them.
    During my research, I found that in 1981, this has, again, 
not been confirmed by the Navy, but it is enough anecdotal 
evidence to show that something like this probably happened, we 
drove a combined U.S. naval battle force up into the Norwegian 
Sea right out of Norfolk and the Soviets didn't find it until 
we started running offensive drills right off of the Northern 
Cape.
    And the amount of discipline required to do that is just 
kind of staggering. It is disciplining when we talk on the 
radio, when we radiate, who radiates, flying an E-2 off the 
carrier using an emissions control profile so it gets outbound, 
pops up to make it difficult for the opponent to figure out 
where it is actually flying from.
    These are all tactics that you don't get proficient 
overnight, it takes a long time.
    And on the other side of the coin, it takes a long time to 
build up the psychological hardening for when the adversary 
starts jamming your communications, jamming your radars.
    You know, we used to have drills where we would jam 
ourselves harder than, you know, the Russians might have, you 
know, so I have been told. And certainly they used various 
tricks when they came out to visit us back in those days I have 
been told as well.
    And I am not sure we have done that type of training in the 
last couple of decades. Certainly when I was on active duty we 
didn't do that.
    So if you look at what we would have to be able to do, both 
in terms of hardening ourselves against the adversary's 
electronic warfare and being able to do the kinds of things we 
did to the Soviets, to great powers today, I am not sure we are 
there.
    I think it requires a great deal of training, a great deal 
of experimentation, and a great deal of just basic conditioning 
from the highest levels of the Navy on down where we let 
captains and deckplate sailors and officers know that it is 
okay to take some risk, it is okay to take the tactical mission 
out.
    You are not going to have some senior officer back on the 
carrier even further away micromanaging your decisions over a 
comms [communications] net because we know that net wouldn't be 
survivable in the event of war.
    And so we are willing to take some of those tactical risks 
to do that. And I think that that is a big missing piece of 
that.
    Mr. Courtney. Okay.
    Mr. McGrath, I mean, you were sort of alluding to the same 
sort of innovation. It is not all about technology, it is also 
about, I guess, a psychological frame of mind. I don't know if 
you want to just maybe embellish on that.
    Mr. McGrath. I have sort of a vignette for you. In March of 
2014 when the Navy went up to the Naval War College to do the 
LCS [Littoral Combat Ship] war game that was directed by the 
Secretary of Defense when he first started to truncate the LCS 
program, they played the game in a manner in which at some 
point they gave the U.S. Navy side a medium-range, 130-or-so 
nautical mile, surface-to-surface missile and put it on the 
previously not-so-armed LCSs.
    And they looked at the psychological difference between how 
the blue commander operated that force and then also how the 
red commander responded to that force.
    And what was interesting about the blue commanders was 
those ships were no more capable of taking a punch than they 
previously were. They were capable only of delivering a punch 
more effectively at a longer range.
    But what that did for the risk calculus in their minds was 
for them to say it is harder and he is going to pay a higher 
cost if he initiates conflict. Therefore, I can take more risk 
with my force. I think that is important.
    Mr. Forbes. Mr. Bridenstine is recognized for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I am a Navy pilot myself. Loved your discussion about the 
E-2 Hawkeye. I was one of those guys that flew off the carrier. 
And of course, we did tactics so that they wouldn't know where 
we were coming from necessarily.
    And then, of course, doing the EMCON recoveries required 
high-intensity operations from the Hawkeye because we would 
offset a pretty significant distance and then control the 
recovery.
    I would just share with you, one of the challenges we faced 
over and over again with network-centric warfare as a 
capability was the interoperations of all the different 
systems.
    We would have, you know, one kind of system for the E-2 
Hawkeye, and then the other systems weren't necessarily 
interoperable with what the Hawkeye was using at the time.
    Is there evidence today that there is more interoperability 
and integration in this network-centric capability that we are 
developing?
    Mr. McGrath. Sir, I think you and I are probably--I am 
probably a little bit older than you are.
    Mr. Bridenstine. Not probably much.
    Mr. McGrath. But we probably served as contemporaries. And 
I underwent the same nightmare that you did.
    It is primarily a function of the way we buy and develop 
systems and the way we implement standards, technical 
standards. This ship, this version of this ship implements the 
Link 16 standard to this degree.
    Mr. Bridenstine. Yes.
    Mr. McGrath. The E-2C to this degree, the AWACS [Airborne 
Early Warning and Control System] to this degree. Where there 
are implementation differences, there is mischief.
    Mr. Bridenstine. Right.
    Mr. McGrath. And my ship shows the track as a neutral, 
yours shows it as an unknown, assumed friend. These are things 
that take operator time.
    We work through that. I think you are seeing more 
integrated development, more adherence to standards, better 
what we used to call SIAP, one and only one track per object.
    Mr. Bridenstine. Single integrated air picture.
    Mr. McGrath. Right, single integrated air picture. That 
sort of thinking is much more well-established in the fleet and 
in the joint force.
    One of the things that really drove that was CEC 
[Cooperative Engagement Capability].
    Mr. Bridenstine. Right, which was the Hawkeye initiative.
    Mr. McGrath. The Hawkeye, what you had were a bunch of 
nodes in the system who had the same exact computer algorithms 
in their combat systems.
    Mr. Bridenstine. Right.
    Mr. McGrath. And they were sharing data so that they all 
reached the same conclusion. That is not the way it happens in 
most combat systems out there in the fleet and in the joint 
force. But within CEC, the Cooperative Engagement Capability 
developed in the early 1990s and worked out through the 1990s 
and 2000s. That is what we got to use during that time.
    Mr. Bridenstine. So when we network together sufficient 
target information to where we have got actually fire control 
coordinates that we can launch on from a non-associated 
platform, obviously that extends the stick out a lot further, 
which is optimum given the threats that we face. We need to be 
able to effect lethality much further away.
    And the challenge that we have in that environment is ID 
[identification], whether it is maybe emitting something, we 
can ID it, there are non-cooperative means that we can ID. But 
as you push, you know, the engagement further away, the ID 
piece gets more and more difficult.
    Are there thoughts about how to solve that issue?
    Mr. Solomon. So I agree with you wholeheartedly. One of the 
chief problems with the Soviet approach, which was to try and 
build a remote picture using electronic signals, direction 
finding, remote radar, they had their radar ocean 
reconnaissance satellites during the 1970s and 1980s, was, you 
know, they wanted to be able to build their picture remotely 
and shoot from a distance, because they knew if they got close 
they would get whacked.
    Mr. Bridenstine. Right.
    Mr. Solomon. But they couldn't do it because the technology 
wasn't there and their command and control architecture wasn't 
there. And so they had to rely on Pathfinders. These suicidal 
bombers were tattletale surface combatants that they pushed in 
and really would only work in peacetime once, where it is 
marking the carrier, marking whatever important surface force 
that they see important in the given area and passing the 
coordinates and the contact identification back to a 
centralized controller, who then uses that to generate the ray 
targeting.
    Well, like I said, it only works once. And if you are 
reliant on long-range exploitation of someone's emissions, 
maybe they won't oblige you.
    Mr. Bridenstine. Right.
    Mr. Solomon. If you are reliant on a radar picture, well, 
radars can be deceived. You know, jamming a radar is one 
option. You can, you know, throw out a lot of noise, but there 
are ways of overcoming that. Deception is a lot harder.
    One of the great tricks we used in the Cold War was putting 
an integrated cover-and-deception system package onboard 
destroyers. It is called, I believe, the AN/SSQ-74. It is not 
really talked about much, but existed.
    And this trailer was able to emulate the, later versions, 
acoustics, but even the electronic emissions.
    Mr. Bridenstine. Well, I am out of time. But I want to get 
this on the record just so everybody is aware and for the 
chairman's sake as well.
    The greatest network-centric capability pushing the threat 
out as far as we can get it, we all love that.
    At the end of the day, if you have to send a pilot to the 
merge in order to get a VID [visual identification], that is 
not the answer we are looking for. So we have got to have 
solutions for that.
    And with that, I will yield back, Mr. Chairman.
    Mr. Forbes. I thank the gentleman for his questions.
    The gentlelady from Hawaii is recognized, Ms. Gabbard, for 
5 minutes.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thanks, gentlemen, for being here.
    You know, Mr. Solomon, you made a lot of references to the 
Cold War and some of the things that we were able to do then. 
Can you talk about the contemporary environment that we are 
operating in with both our advanced technology and others and 
either really what the differences are when you are talking 
about deception, between now and, you know, a previous 
generation?
    Mr. Solomon. Well, the focus hasn't changed. We are still 
dealing with electronic emissions exploitation, direction 
finding. Perhaps they have become more accurate in their 
ability to refine areas of uncertainty, where a given emitter 
might be.
    Certainly during the Cold War, the Russians only had a 
couple of satellites up at a time. Now it looks like various 
competitors might have satellite constellations capabilities, 
these types of triangulations up more regularly.
    We are still looking at space-based radar, the use of 
synthetic aperture radar to build a picture. But it only visits 
a certain area of ocean space for a given period during the 
day. And so that really hasn't changed, it depends upon how 
many satellites you have up there.
    The ability to use unmanned vehicles, whether surface, 
subsurface, aerial, that is kind of different. You know, there 
might have been a little bit more hesitance perhaps to use a 
manned bomber in that role, although the Soviets didn't seem to 
have that hesitance.
    Now that you can perhaps use an unmanned system in that 
role, that is a major concern. But it also flips it around, 
from our perspective, and getting back to the gentleman's 
point, you know, if I can't be absolutely sure of what I am 
targeting using remote means, using an unmanned system to do a 
relatively close range, whether visual, infrared, electrical 
optical, whatever identification, make sure I am looking at a 
real contact as opposed to a decoy or someone pretending to be 
something that they are not. That is a bit of a difference.
    And the technology in that realm is certainly more advanced 
than it was during the Cold War. I am not sure who is ahead in 
that regard. I certainly think that is an area of important 
investment for us. I don't have a sense of where potential 
adversaries are on that.
    Ms. Gabbard. Thank you.
    Mr. McGrath, with the Distributed Lethality concept, what 
are the major points of resistance within the Navy to adopting 
this? And building off the chairman's question, how do those 
changes really come about?
    Mr. McGrath. You know, the more I hear it talked about, the 
more it seems like the surface guys are pushing on an open 
door.
    I think there are some bureaucratic and budgetary rice-bowl 
issues. If we spend X amount of dollars on increasing the 
lethality of the surface force, those dollars have to come from 
somewhere, where will they come from, whose ox gets gored in 
that process?
    So I think that would be--but you know, that is the 
Pentagon, you know, that is just overhead associated with the 
way that the Department is run. That sort of stuff gets worked 
through. It is pretty much an open door.
    Ms. Gabbard. I think the Navy Institute has a quote, saying 
that there are no leaps of technology required, no massive 
funding increases necessary. Do you think that that is 
accurate?
    Mr. McGrath. I think it is accurate to a point. I think 
there are a whole slew of technologies and capabilities that 
are 7 years and in that the surface force could integrate that 
aren't--there is no magic involved, there is no, you know, leap 
of faith required.
    There are leaps of faith in the 2030, 2040 force that we 
have to invest in S&T [science and technology] and R&D 
[research and development] to get to. But a good, solid 
instantiation of Distributed Lethality in the 2025 timeframe is 
not a budget breaker.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. All right. Thank you, Chairman.
    Can you talk to us about where lasers and electromagnetic 
railguns and even improvements in powder projectiles fit within 
this innovative timeframe? And are those something that the 
Navy is serious about? Where do they fit?
    Mr. Solomon. Okay. Well, I personally think the Navy is 
very serious about those technologies. You know, the Navy 
leadership is very, very excited, from what I have seen in the 
open press, about railgun in particular and there are plans to 
demo it onboard, I think, the JHSV [Joint High Speed Vessel] 
Millinocket next year.
    And there are certainly, you know, people looking at how to 
get that into the fleet sometime in the late 2020s. I think it 
is to be determined what type of combatant you put that on, you 
know, whether you might use a DDG-1000, in my personal opinion, 
or whether we look to a new combatant sometime in the late 
2020s that, if this technology proved out, that you could put 
that on.
    But for railgun, I think we alluded to this earlier, that 
the projectile itself is probably even more important, the 
ability for the projectile to survive these electromagnetic 
forces in the barrel and do all kinds of things we want it to 
do, whether it is land attack or missile defense, that is an 
open question.
    As for laser, I think the Navy is also very much in support 
of that. You see the talking points on what we have done out in 
the Persian Gulf on AFSB [Afloat Forward Staging Base]. And I 
certainly think that the Navy is looking at, you know, solid-
state laser technologies that might be used for point defense, 
because that is really what it seems like laser would be best 
capable of doing, especially, in my opinion, for unmanned 
aerial vehicle defense.
    You don't want to be burning up hard ordnance shooting a 
bunch of UAVs out of the sky. So I think there is a lot of 
enthusiasm for that in Navy leadership.
    Mr. Conaway. So where do both these technologies fit in the 
existing structure? I mean, are there--you said the DDG-1000 
for the railgun or whatever. Is that adaptable to everything 
that is in the fleet now, or do we have to have a whole new 
class of ships to make this deal work, make those weapons work?
    Mr. McGrath. I don't think we need a whole new class of 
ship, we need to bring the integration costs down. The railgun 
is not a cheap capability. It is a wonderful capability and it 
is something that will and should join the fleet, but it is 
expensive.
    And when you start to look at the trades and what you could 
get, what other things you could get, those trades sometimes 
look less attractive.
    Mr. Conaway. So in terms of the weapon itself, but not the 
usage? Because the idea with the railgun is that you could 
shoot a lot of them for less than----
    Mr. McGrath. And you would wind up spending less per shot 
than you would with a missile, that is for sure.
    Mr. Conaway. Okay.
    Mr. McGrath. And that, in the long run, it is hard to get 
organizations in the Department of Defense to think life cycle. 
They like to think acquisition and they like to think, you 
know, the budget that is in front of them like this.
    But when you start to bring in those longer-range life 
cycle things, they make a compelling case for both lasers and 
the railgun.
    Mr. Conaway. Okay.
    Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Russell is recognized for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And you know, I had almost identical questions, so along 
that vein, and then I will add an extra in.
    It would seem to me in a 40- to 50-year overmatch capacity, 
you know, we are going to continue to have diminishing budgets, 
China will continue to have increasing budgets. That will 
create a delta that will be double between now and 2030 
probably of $2 trillion.
    Given that, we have got some great potential with the 
railgun technologies. So when you talk expenses, are you saying 
is that based upon the power generation piece of this? Is it 
based upon the ordnance piece of it? Where would that be?
    Mr. McGrath. It is an expensive piece of gear to buy and 
integrate. Over the cost of operating it over 20 or 30 years, 
its per-shot versus a missile system is a great savings. And we 
have to think more like that. I am not saying that the railgun 
shouldn't be integrated. I am trying to give an idea of why it 
isn't happening faster.
    Mr. Russell. But don't you think it would even go beyond 
that when you look at terms of versatility? You can use it for 
air defense. You can use it for direct fire. You can use it for 
long distance. You can use it for land-based interservice use.
    It would seem that if it had the appropriate level of, 
look, as you say, to look at life cycle, that there would be 
great utility, great overmatch and, in the long run, maybe even 
a cost saving.
    Mr. McGrath. My personal view is that the railgun's 
greatest contribution is going to be in missile defense.
    Mr. Russell. Yes, which is our number-one threat towards 
our carrier fleet--newsflash.
    Mr. McGrath. You know, as a direct fire weapon from the 
sea, even at the energy levels that we are talking about and 
the biggest railgun that we are talking, I think we are talking 
about something like 200 miles.
    Two hundred miles from a land target in some of these 
fights that we are talking about in the future is pretty close. 
So I would like the IMD [integrated missile defense], the 
missile defense, capability as fast as we can get it.
    Mr. Russell. And I will waive the UAV laser question 
because that got answered.
    But in terms of capability and capacity, we hear at all of 
these briefings about, you know, the 11th carrier and the 
turnaround, and now we are seeing allies, fortunately, like 
Great Britain to launch a couple, and France maybe they are 
going to get a different look at adding carrier number two, we 
don't know.
    But regardless, with the amphibious assault ships and the 
last iteration of the Wasp class and then the America class 
that is rolling out, under terms of sea control and forward 
staging, you know, particularly in the Pacific, there is a lot 
of versatility there. These are Midway-size carriers. You know, 
in appearance they certainly provide an awful lot of capacity.
    What thinking is the Navy doing with regard to that, if we 
have forward staged-based stuff and now we can have sea control 
with the amphibious assault ships? Is that even part of the 
equation when looking at carrier structure and presence?
    Mr. McGrath. The amphibious assault ships with the F-35B 
embarked are going to be incredible assets in the Navy and 
Marine Corps--the maritime fight.
    That plane is a fantastic combat vehicle for doing a whole 
lot of things. It is not just air-to-mud. This stuff that it 
can do in terms of this anti-surface, integrated air and 
missile defense, there are all sorts of things that the Navy 
and the Marine Corps need to cooperate much more closely in 
order to get the benefits out of that to the warfight. They are 
thinking and working in that regard.
    I think, and I have written pretty widely about this, it is 
not correct to think of the America class with F-35Bs as a 
substitute. And I am not saying you said this----
    Mr. Russell. No, that is the versatility.
    Mr. McGrath. It is a----
    Mr. Russell. And a gap filler which we hear all the time we 
need.
    Mr. McGrath. It is an extender, a gap filler, it is a 
capability that we are going to get a whole lot more out of 
than we can get currently out of the AV-8Bs in that.
    Mr. Russell. Okay, yes, thank you.
    Thank you, Mr. Chair.
    Mr. Forbes. Mr. McGrath, Mr. Solomon, thank you so much for 
your testimony.
    Ms. Graham has waived any questions she might have for you.
    And you heard the bells, they toll for us. But we want to 
make sure that we have given you a last couple of minutes for 
any wrap-up that either of you might have before we adjourn.
    Mr. McGrath.
    Mr. McGrath. I would like to thank Mr. Courtney, in his 
absence, for using the phrase ``hardening.'' The Air Force, 
when we talk about air bases we talk about hardening, hardening 
air bases, air bases that aren't going anywhere, they are just 
going to stay there.
    We talk about survivability with respect to ships. And I 
think it levies a rhetorical weight upon the Navy that I am 
personally trying to change by using the word ``hardening,'' we 
want to harden the surface force, make it fight through damage 
and deliver more damage to the other guy. And I thank Mr. 
Courtney for using that word.
    Mr. Forbes. Mr. Solomon.
    Mr. Solomon. I think that it is important to view 
Distributed Lethality as a set of options; it is not purely 
offensive, or at least it shouldn't be.
    And I don't believe, as Mr. McGrath said earlier, that it 
is going to be subtracting from defensive unless we, you know, 
make a mistake in how we define the concept.
    I see Distributed Lethality as a tool for our force 
commanders, for our theater commanders, to give them more 
options at every stage of the conflict spectrum. And to the 
extent that electronic warfare supports that, you know, there 
are certainly less things you can do during phase zero, phase 
one, the shaping, the turns that you can do when you are 
actually in combat, but there are things you can do there.
    I think there are a lot of rich historical examples of how 
we did psychological shaping of the Soviets during the late 
Cold War to help deter them from any belief that they would be 
successful in a first salvo. I think that is pretty crucial.
    And so to the extent that the Navy can look at that rich 
history, which is still largely classified, and derive new 
ideas for how we might condition some of our great-power 
adversaries or potential adversaries, that today is not the 
day, using tools like these, I think that is very important to 
think about.
    Mr. Forbes. Okay.
    I thank you both for being here today and for the 
contributions you make to the national defense of our country.
    And with that, we are adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            December 9, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 9, 2015

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      







                              [all]
</pre></body></html>
